USCA11 Case: 20-10378

Date Filed: 05/06/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10378-D

SEAN P. REILLY,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.

Appeal from the United States District Court
for the Northern District of Florida

ORDER:
To merit a certificate of appealability, Sean Reilly must show that reasonable jurists would
find debatable both: (1) the merits of an underlying claim, and (2) the procedural issues that he
seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473,478 (2000). Because
Reilly has failed to make the requisite showing, the motion for a certificate of appealability is
DENIED. His motion for leave to proceed on appeal in forma pauperis is DENIED AS MOOT.

/s/ Robert J. Luck
UNITED STATES CIRCUIT JUDGE

Case 4:18-cv-00225-MW-CAS Document 44 Filed 12/17/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
SEAN REILLY,
Petitioner,
v.

Case No. 4:18cv225-MW/CAS

MARK S. INCH, Secretary,
Department of Corrections,
Respondent.

ORDER ACCEPTING REPORT AND RECOMMENDATION
This Court has considered, without hearing, the Magistrate Judge's Report and
Recommendation, ECF No. 35, and has also reviewed de novo Petitioner’s
objections to the report and recommendation, ECF No. 43. Accordingly,
IT IS ORDERED:
The report and recommendation is accepted and adopted, over Petitioner’s
objections, as this Court’s opinion. The Clerk shall enter judgment stating, “The
amended § 2254 petition, ECF No. 22, is DENIED. Petitioner’s motion for
appointment of counsel, ECF No. 32 and motion for an evidentiary hearing, ECF
No. 33, are DENIED. Petitioner’s Renewed Motion for Appointment of Counsel,
ECF No. 42, and Motion Requesting Financial Assistance for the Appointment of a
Mental Health Expert, ECF No. 41, are DENIED.
1

Finally, a Certificate of

Case 4:18-cv-00225-MW-CAS Document 44 Filed 12/17/19 Page 2 of 2

Appealability and leave to appeal in forma pauperis are DENIED.” The Clerk shall
also close the file.
SO ORDERED on December 16, 2019.
s/ MARK E. WALKER
Chief United States District Judge

2

Case 4:18-cv-00225-MW-CAS Document 45 Filed 12/17/19 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
SEAN REILLY
VS

CASE NO. 4:18cv225-MW/CAS

MARK S. INCH,Secretary, Department
of Corrections,
JUDGMENT

The amended § 2254 petition, ECF No. 22, is DENIED. Petitioner’s motion for
appointment of counsel, ECF No. 32 and motion for an evidentiary hearing, ECF No. 33,
are DENIED. Petitioner’s Renewed Motion for Appointment of Counsel, ECF No. 42,
and Motion Requesting Financial Assistance for the Appointment of a Mental Health
Expert, ECF No. 41, are DENIED. Finally, a Certificate of Appealability and leave to
appeal in forma pauperis are DENIED.

JESSICA J. LYUBLANOVITS
CLERK OF COURT
December 17, 2019
DATE

s/Tonisha Young
Deputy Clerk: Tonisha Young

fted&ral iV^isirAe's
A fro St frisohir mn£± fjvt f>osi-con oiaiio/j
C^nSe-j ^krfAcr\-ma, v, eytm, j 32Sci, l3o?fai£)

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 1 of 29

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
SEAN REILLY
Petitioner,
Case No. 4:18cv225-MW/CAS

v.
MARK S. INCH, Secretary,
Department of Corrections,
Respondent.

REPORT AND RECOMMENDATION
On April 27, 2018, Sean Reilly, a state inmate proceeding pro se,
filed a petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254, ECF
No. 1, and a supporting memorandum, ECF No. 4. He later filed an
amended § 2254 petition. ECF No. 22. On May 13, 2019, Respondent
filed an answer, with exhibits. ECF No. 26. Petitioner has filed a reply,
with exhibits, ECF No. 30, and a supplemental reply, ECF No. 34.
Petitioner has also filed a notice of supplemental authority, ECF No. 31; a
motion for appointment of counsel, ECF No. 32; and a motion requesting
an evidentiary hearing, ECF No. 33.
The matter was referred to the undersigned United States Magistrate
Judge for report and recommendation pursuant to 28 U.S.C. § 636 and
Northern District of Florida Local Rule 72.2(B). After careful consideration

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 2 of 29

Page 2 of 29

the undersigned has determined no evidentiary hearing is required for the
disposition of this matter. See Rule 8(a), R. Gov. § 2254 Cases. The
pleadings before the Court show the § 2254 petition, as well as Petitioner’s
pending motions, should be denied.
Procedural Background
This proceeding involves two underlying state criminal cases from the
Second Judicial Circuit, Leon County: 2008-CF-781 and 2008-CF-4221. In
case number 2008-CF-781, on March 10, 2008, the State of Florida filed an
amended information charging Petitioner Sean Reilly with witness
tampering, a third degree felony, in violation of section 914.22(1), Florida
Statutes. Ex. E1 at 10; see id. at 9 (Information).1 Reilly ultimately
proceeded to a jury trial on March 4, 2010, before Judge James C.
Hankinson. Ex. E2. During the trial, Reilly represented himself; he did not
testify in his own defense. Id. at 2, 13, 117-18. The jury found him guilty
as charged. Ex. E1 at 70; Ex. E2 at 163-64. Judge Hankinson adjudicated
Reilly guilty and sentenced him, on March 12, 2010, to ten (10) months in

1 Hereinafter, all citations to the state court record, "Ex.
ECF No. 26.
Case No. 4:18cv225-MW/CAS

refer to exhibits submitted with Respondent's answer,

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 3 of 29

Page 3 of 29

jail, followed by two (2) years of community control, followed by two (2)
years of probation. Ex. E1 at 82-88, E4. Reilly appealed his conviction and
sentence to the First District Court of Appeal (First DCA), assigned case
number 1D10-1359, and that court per curiam affirmed the case without a
written opinion on July 28, 2011. Ex. E7; Reilly v. State. 77 So. 3d 184
(Fla. 1st DCA 2011).
On September 10, 2010, Reilly’s community control officer filed an
affidavit in state court alleging Reilly had violated the conditions of his
community control by not remaining confined to his approved residence on
a dozen occasions. Ex. F1 at 165-92. On December 16, 2010, after a
violation of community control (VOCC) hearing, Judge Hankinson found
Reilly willfully and materially violated his conditions, revoked community
control, and sentenced him to four (4) years in prison, to run concurrently
with the sentence imposed in case number 2008-CF-4221A. Ex. F2 at 215;
see Ex. F3 at 223-83 (transcript of VOCC hearing). Reilly did not testify at
the hearing and the defense presented no witnesses or evidence. Ex. F4
at 269. Reilly appealed, assigned First DCA case number 1D11 -88, and
his counsel filed an initial brief pursuant to Anders v. California. 386 U.S.

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 4 of 29

Page 4 of 29

738 (1967), indicating no issues of arguable merit existed. Ex. F5. Reilly
filed a pro se brief. Ex. F7. On January 28, 2014, the First DCA per curiam
affirmed the case without a written opinion. Ex. F8; Reilly v. State. 132 So.
3d 229 (Fla. 1st DCA 2014).
In the meantime, Reilly filed several pro se motions in state court
including a motion for postconviction relief on February 22, 2012, alleging
seven grounds. Ex. Q1 at 1-83. On March 29, 2012, Judge Hankinson
summarily denied relief. Id. at 84-109. Reilly appealed and the First DCA
per curiam affirmed the case, assigned number 1D12-2463, without a
written opinion on October 22, 2012. Ex. Q2; Reilly v. State. 100 So. 3d
683 (Fla. 1st DCA 2012). The mandate issued November 19, 2012. Ex.
Q3.
In addition, the First DCA ultimately granted him a belated appeal in
written opinion issued November 16, 2012, in case number 1D12-109,
allowing a direct appeal of Reilly’s conviction for witness tampering in
circuit court case number 2008-CF-781. Ex. D7; Reilly v. State. 102 So. 3d
680 (Fla. 1st DCA 2012). At the conclusion of that belated appeal,
assigned case number 1D12-5909, the First DCA affirmed the conviction

Case No. 4:18cv225-M W/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 5 of 29

Page 5 of 29

and sentence without a written opinion on October 15, 2013. Ex. B8; Reilly
v. State. 122 So. 3d 872 (Fla. 1st DCA 2013).
In case number 2008-CF-4221, on May 8, 2009, the State of Florida
filed an amended information charging Reilly with several counts: three
counts of criminal use of personal identification information (Counts 1,2,
and 5); stalking (Count 3); and causing a phone to ring repeatedly (Count
4). Ex. R1 at 2-3. Reilly proceeded to a jury trial before Judge Hankinson
on the three counts of criminal use of personal identification information.
Ex. R3 at 16. The State ultimately nolle prossed Counts 3 and 4. Ex. R7 at
159. The jury found him guilty as charged on two of the counts and not
guilty on the third. Ex. R1 at 71-72. On September 22, 2009, Judge
Hankinson withheld adjudication of guilt and sentenced Reilly to eleven
(11) months and twenty-nine (29) days in jail, to be followed by two (2)
years of probation on the first count and, on the second count, two (2)
years of community control, to be followed by two (2) years of probation
consecutive to the sentence imposed on the first count. Ex. R1 at 73-81;
R6.

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 6 of 29

Page 6 of 29

Reilly appealed his conviction and sentence to the First DCA
assigned case number 1D09-5013. Ex. R1 at 108; Exs. R9, R10. On
November 28, 2011, the First DCA per curiam affirmed the case without a
written opinion. Ex. R11; Reilly v. State. 75 So. 3d 725 (Fla. 1st DCA

2011).
On October 14, 2009, Reilly filed, through counsel, a stipulated
motion for additional jail credit, Ex. H1 at 154-55, which Judge Hankinson
granted by order on October 16, 2009, Ex. H1 at 156-57. Reilly also filed
several pro se motions which the court dismissed as unauthorized because
Reilly was represented by counsel.
On September 10, 2010, Reilly’s probation officer filed an affidavit in
state court alleging Reilly had violated the conditions of his community
control by not remaining confined to his approved residence on a dozen
occasions. Ex. F1 at 165-92. On December 16, 2010, after a VOCC
hearing, Judge Hankinson found Reilly willfully violated his conditions
revoked community control, and sentenced him to five (5) years in prison,
on Count 1, to run concurrently with the four-year sentence imposed in
case number 2008-CF-781. Ex. F2 at 215; see Ex. F3 at 223-83 (transcript

Case No. 4:18cv225-MW/CAS

A"

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 7 of 29

Page 7 of 29

of VOCC hearing). On Count 5, the court sentenced Reilly to two (2) years
■ of community control, followed by two (2) years of probation, to run
consecutively to the sentence imposed on Count 1. Ex. H3 at 430; Ex. F3
at 280. Although Reilly appealed his sentence on revocation of community
control in 2008-CF-4221, as indicated above, it is not clear that he also
appealed his sentence on revocation of community control in 2008-CF4221. See Ex. A2.
On April 25, 2012, Reilly filed a pro se petition for writ of habeas
corpus in the First DCA seeking a belated appeal in both cases. Ex. J3.
The First DCA granted relief in a written opinion on July 31,2012. Reilly v.
State. 93 So. 3d 520 (Fla. 1st DCA 2012) (1D12-2142); Ex. J3. The
mandate issued August 28, 2012. Ex. J4.
Among other filings, on August 28, 2012, Reilly submitted a pro se
Motion to Vacate and Set Aside Conviction and Sentence Pursuant to Fla.
R. Crim. P. 3.850, alleging nineteen (19) claims. Ex. H3 at 454-512. He
subsequently filed a motion to supplement his Rule 3.850 motion, Ex. H3 at
513-19, and an amended Rule 3.850 motion, Ex. H4 at 563-624.

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 8 of 29

Page 8 of 29

On March 6, 2013, Reilly filed a pro se petition for writ of habeas
corpus in the First DCA, alleging ineffective assistance of appellate
counsel. Ex. L1. On March 19, 2013, he moved to supplement the
petition. Ex. L2. On April 5, 2013, the First DCA denied the petition on the
merits, assigned case number 1D13-1183. Reilly v. State. 110 So. 3d 534
(Fla. 1st DCA 2013); Ex. L3. Reilly subsequently filed other petitions in the
First DCA, which were denied. Exs. M1, M2, K1, K2, K3.
On July 25, 2013, Reilly filed another supplement to his Rule 3.850
motion, adding a claim alleging newly discovered evidence. Ex. 01A at 97101. He then filed an amended motion, supplementing his Rule 3.850
motion with two additional claims of newly discovered evidence. Ex. OIA
at 102-12. On December 28, 2016, he filed a “Motion Supplementing Rule
3.850 with a New Claim Based on a Manifest Injustice.” Ex. OIA at 11322. On February 21, 2017, the state trial court dismissed that motion as an
unauthorized pro se pleading because Reilly was represented by counsel,
Robert A. Morris. Id. at 123. That same day, the court entered another
order setting an evidentiary hearing on Reilly’s 3.850 motions for April 18,
2017. Id. at 125. On March 3, 2017, and March 21,2017, Reilly filed pro

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 9 of 29

Page 9 of 29

se motions to supplement, id. at 126-38 and 153-65, both of which the
court dismissed as unauthorized by orders on March 23, 2017, id. at 143,
and April 13, 2017, id. at 168.
The evidentiary hearing took place on April 19, 2018, before Judge
Hankinson. Ex. 01B (transcript). At the conclusion of the hearing, the
judge denied relief. Id. at 258-63. That same day, the judge rendered an
order denying postconviction relief “[bjased on the reasons as announced
on the record,” finding that Reilly ‘has failed to show that he received
ineffective assistance of counsel or that he was prejudiced by any alleged
deficiency.” Ex. 01A at 181. The order further explains Reilly “has filed
numerous other pleadings and claims in both cases” and “[a]ll other claims
were abandoned at the evidentiary hearing by counsel,” and, therefore, “all
other claims in both cases are denied.” Id.
Reilly appealed the denial of postconviction relief to the First DCA,
assigned case number 1D18-1894. On May 24, 2019, the First DCA per
curiam affirmed the case without a written opinion. On June 10, 2019,
Reilly filed a motion for rehearing. By order on July 10, 2019, the First DCA
denied the motion for rehearing. See online docket for 1D18-1894. On

Case No. 4:18cv225-MW/CAS~

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 10 of 29

Page 10 of 29

August 21, 2019, the court denied Reilly’s motion, filed July 8, 2019
seeking a written opinion. See id. The mandate issued September 11,
2019. See id.
As indicated above, on April 27, 2018, Reilly filed a petition for writ of
habeas corpus in this Court pursuant to 28 U.S.C. § 2254, ECF No. 1, and
a supporting memorandum, ECF No. 4. He later filed an amended § 2254
petition. ECF No. 22. In the amended § 2254 petition, Reilly raises four
grounds, all claiming ineffective assistance of counsel (IAC):
(1) IAC - Failure to Investigate and Pursue Viable Defense
of Entrapment and Unwilful Violation of Probation:
Petitioner asserts his probation officer informed him he could go
anywhere in Miami-Dade County to look for a job and he had
permission to be absent from his residence on each of the
twelve occasions alleged in the revocation of probation affidavit.
ECF No. 22 at 4-5.
(2) IAC - Misadvised Petitioner Not to Testify to
Corroborate Viable Defenses of Entrapment and Unwilful
Violation of Probation and Failed to Locate Weekly
Schedule Log Forms: Petitioner asserts if counsel “had
properly advised him to testify in his own defense,” Petitioner
“would have informed the Court that he had prior approval to be
away from his house and he was not instructed on being at any
specific place.” Id. at 8. Petitioner also asserts “[tjrial counsel
could have obtained the weekly schedule to support the
defense that Petitioner had permission to be away from his
home and, therefore, did not willfully and substantially violate
the conditions of his probation.” Id.
Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 11 of 29

Page 11 of 29

(3) IAC - Failure to Investigate, Hire, and Call Mental
Health Expert Witness to Corroborate Defense of Unwilful
Violation of Probation: Petitioner asserts he has struggled
with Attention Deficit Disorder (ADD) all his life and could not
afford his ADD medication. Id. at 10. He asserts “his mental
illness was so debilitating to the point that he was unable to
comply with the terms of his probation.” Id. He asserts that a
mental health expert could have opined as to the willfulness of
the violation. Id. at 11.
(4) IAC - Affirmatively Misadvised Petitioner Not to Accept
the State’s Plea Offer of Four Years in Prison: Petitioner
asserts that counsel informed him the State’s case was weak
and the State could not prove a substantial and willful violation
of probation because “all they had was hearsay evidence.” Id.
at 14. Petitioner asserts that counsel “misinformed him that the
trial court would reinstate his probation based on the hearsay
testimony.” Id. Petitioner asserts that if counsel had properly
advised him, he would have accepted the plea offer. Id.
Respondent has filed an answer, with exhibits. ECF No. 26. Reilly has not
filed a reply, although he was given the opportunity to do so. See ECF No.
29.
Analysis
Pursuant to 28 U.S.C. § 2254, as amended by the Anti-Terrorism and
Effective Death Penalty Act of 1996 (AEDPA), federal courts may grant
habeas corpus relief for persons in state custody. Section 2254(d)
provides, in pertinent part:
Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 12 of 29

Page 12 of 29

An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not
be granted with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication of
the claim(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in
the State court proceeding.
28 U.S.C. § 2254(d). See, e.g., Cullen v. Pinholster. 563 U.S. 170, 180-83
(2011); Gill v. Mecusker. 633 F.3d 1272, 1287-88 (11 th Cir. 2011). “This is
a ‘difficult to meet’ and ‘highly deferential standard for evaluating statecourt rulings, which demands that state-court decisions be given the benefit
of the doubt.’” Cullen. 563 U.S. at 181 (quoting Harrington v. Richter. 562
U.S. 86, 102 (2011), and Woodford v. Visciotti. 537 U.S. 19, 24 (2002)).
This Court’s review “is limited to the record that was before the state court
that adjudicated the claim on the merits.” Id.
For claims of ineffective assistance of counsel (IAC), the United
States Supreme Court has adopted a two-part test:
First, the defendant must show that counsel’s performance was
deficient. This requires showing that counsel made errors so
Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 13 of 29
Page 13 of 29

serious that counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth Amendment. Second,
the defendant must show that the deficient performance
prejudiced the defense. This requires showing that counsel’s
errors were so serious as to deprive the defendant of a fair trial
a trial whose result is reliable.
Strickland v. Washington. 466 U.S. 668, 687 (1984). To demonstrate
ineffectiveness, a “defendant must show that counsel’s performance fell
below an objective standard of reasonableness.” Id. at 688. To
demonstrate prejudice, a defendant “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Id. at 694. “A reasonable
probability is a probability sufficient to undermine confidence in the
outcome.” Id. For this Court’s purposes, importantly, “[t]he question ‘is not
whether a federal court believes the state court’s determination’ under the
Strickland standard ‘was incorrect but whether that determination was
unreasonable - a substantially higher threshold.’” Knowles v. Mirzavance.
556 U.S. 111, 123 (2009) (quoting Schriro v. Landriqan, 550 U.S. 465, 473
(2007)). “And, because the Strickland standard is a general standard, a
state court has even more latitude to reasonably determine that a
defendant has not satisfied that standard.” Id. It is a “doubly deferential
judicial review that applies to a Strickland claim evaluated under the
§ 2254(d)(1) standard.” Id.
Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 14 of 29
Page 14 of 29

Ground 1: IAC - Failure to Investigate and Pursue Viable Defense
Of Entrapment and Unwilful Violation of Community Control
In his first ground, Petitioner Reilly argues defense counsel provided
ineffective assistance by not investigating and pursuing a defense of
entrapment and unwilful violation of community control. ECF No. 22 at 4-5.
Reilly explains that his probation officer told him he could go anywhere in
the county to look for a job and he had permission to be absent from his
residence on the twelve occasions alleged in the violation affidavit. Id. He
also argues that his post-conviction counsel performed ineffectively by
abandoning this claim at the evidentiary hearing. Id. at 5.
Respondent asserts Reilly did not exhaust this claim and it is now
procedurally barred under state law. ECF No. 26 at 19, 21. Respondent
asserts Reilly has not demonstrated cause to excuse the default because
he has not established ineffectiveness by post-conviction counsel. Id. at

21.
As a preliminary matter, at the start of the evidentiary hearing, the
post-conviction judge indicated that Reilly had just filed, on April 11 or 12, a
motion to discharge his counsel, Baya Harrison, in case number 2014-CF17, but allow him to continue in the other two cases, 2008-CF-781 and
2008-CF-4221. Ex. Q1B at 188. Mr. Harrison indicated he had not “heard

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 15 of 29
Page 15 of 29

about this latest matter.” Id. Mr. Harrison made the following statements
on the record:
MR. HARRISON: . . . I’ve been involved in this case for many,
many months now, and I don’t want to - certainly don’t want to
get into an argument on the merits with - with my client; but I
can simply tell you, there are rules that govern my conduct, one
of which is that I cannot file a claim that I do not believe has
merit factually or legally, I’m - I’m not allowed to do that.
When a decision is made by a Defendant to have a lawyer,
that’s his decision. He doesn’t have to have me, or he doesn’t
have to have a lawyer. But once I am appointed, I make the
decision on what claims to pursue.
I will simply tell you - I don’t want to get into the details of
anything - I’ve been through these files multiple times, read
these records, I would love to find claims, post-conviction
claims. I cannot in good faith say that I could find a basis to file
a claim in 2014-CF-17. Believe me, I - I - I have studied that,
so I just want you to know that.
And I conveyed to the client, since he’s filed this motion I
can tell you that I conveyed to him and his father months ago
that if he disagreed with my decision, you know, he could
always fire me; he could always go out and retain a lawyer; but
there are a lot of issues when - when a - when a young man
files an ineffective claim, he has to swear to it under oath and
under penalty of perjury. And believe me, that is something
that - that I thought very carefully about when I made the
decision that I could not find anything in that record in 14-CF-17
upon which to base an IAC claim.
THE COURT: Well, the record is a little voluminous, so, you
know, I spent a great deal of time yesterday reviewing it. But
you agree with my assessment, there is no post-conviction
claim at this point in 2014-CF-17?
MR. HARRISON: That’s correct, sir.

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 16 of 29
Page 16 of 29

THE COURT: All right. So do you see any complication from
me just allowing you - just discharging you from that case, and
he - he still does have some time to file what he thinks may be
appropriate. But do you see that causes any confusion here
today?
MR. HARRISON: Not with me, no, sir, it doesn’t.
Id. at 189-90. Accordingly, the post-conviction judge granted Reilly’s
motion to discharge Mr. Harrison in case number 2014-CF-17, which was
not being heard at the evidentiary hearing. Id. at 188, 191. The judge
confirmed with Reilly that this was how he wanted to proceed and Reilly
responded, “Yes, sir.” Id. at 191. Thus, if Reilly was not pleased with how
Mr. Harrison was handling post-conviction matters in the cases being heard
at the evidentiary hearing, 2008-CF-781 and 2008-CF-4221, and wished to
proceed on the claims his attorney wanted to abandon, Reilly clearly knew
how to request his lawyer be discharged.
Regardless, on the merits, Reilly’s claim fails as it is refuted by
portions of the transcript of the violation hearing. See Ex. F3. In particular
although Reilly asserts his probation officer gave him permission to be
absent from his residence on each of the twelve instances because he was
searching for a job, the testimony and evidence presented by the probation
officer at the violation hearing indicates that, on each of those instances,
Reilly was not performing job searches.

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 17 of 29
Page 17 of 29

First, Officer Walter Langley testified that he briefed Reilly on the
requirements of community control and GPS, and he explained to Reilly
that, on community control, he had to stay confined to his residence unless
he had prior approval to leave his residence. Id. at 228-29. Reilly indicated
to the officer that he understood all the instructions. Id. at 229-30.
Second, Officer Guelsy Herrera testified she met with Reilly two days
prior to his release on community control. Id. at 234. She testified that the
notes in the file indicated Reilly was instructed on the conditions of GPS
and community control by Officers Langley and Summers before she met
with Reilly. Id. at 234-35. Officer Herrera testified that she went over
everything again with Reilly. Id. at 235. She went over each condition one
by one and Reilly indicated he understood. Id. She testified that, instead
of being at his residence as required or searching for a job as permitted,
Reilly was (1) playing basketball at a local park, Ex. F3 at 238-39, and he
listed that he did not have any employment contacts; (2) visiting a friend at
the friend’s house and at the beach, Ex. F3 at 239-40, and he did not list
any job searches; (3) visiting a park and restaurant, Ex. F3 at 241-42; (4)
visiting a friend at the friend’s house and a park, Ex. F3 at 245; (5) at the
beach, Ex. F.3 at 247-49; (6) visiting a friend at the friend’s house, Ex. F3
at 253; (7) attending a professional baseball game, Ex. F3 254-55; (8)

Case No. 4:18cv225-MW/CAS

Case 4:18-CV-00225-MW-CAS Document 35 Filed 10/18/19 Page 18 of 29
Page 18 of 29

visiting a friend at the friend’s house and the beach, Ex. F3 at 255-56.
Reilly’s job search log was admitted into evidence. Id. at 244.
In particular, regarding playing basketball at the park on August 13
2010, Officer Herrera testified:
Q I’d like to start with the first alleged violation, on August
13th, 2010. Could you tell me what the alleged violation is on
that date?
A He is at a park, Douglas Park, which is on 37th Avenue
between 4:37 and 6:18.
Q Now, what did his daily schedule state that Mr. Reilly
where he was supposed to be that day?
A On August 13th he was supposed to be searching for
jobs, employment.
Q Did he list any job search or employment search at
Douglas Park?
A I do not recall, but I will double-check. He actually
didn’t state anything for that day.
Q So he listed that he didn’t have any employment
contacts.
A Correct.
Q So based on that, did he have permission to be at
Douglas Park from 4:37 to 6:18 p.m.?
A No, he did not.
Q And did you - strike that. If he had a job interview at
Douglas Park, let’s say, for park and recreation staff, then he
would have been allowed to have been there, right?
Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 19 of 29
Page 19 of 29

A Correct.
Q But he didn’t list any employment contact?
A No.
Q Did you ultimately later on ask Mr. Reilly what he was
doing at the park?
A Yes.
Q And what did he tell you?
A Playing basketball.
Id. at 238-39. Officer Herrera testified she talked with Reilly about him
being at the beach on August 14 and asked him if he had any legitimate
employment purposes there and, “He just smiled.” Id. at 240. Further
regarding Reilly’s unauthorized attendance at the baseball game on August
22, Officer Herrera testified:
Q And did you discuss with him his attendance at this
baseball game?
A Yes, I did.
Q And what was his response?
A He stated that he had gone to an interview and they
had given him tickets so he went to the game.
Q Okay. And did you tell him - did you discuss with him
the fact that he didn’t have approval on that date?
A Yes.
Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 20 of 29
Page 20 of 29

Q And did he acknowledge that he knew he didn’t have
approval?
A He said, “Sorry.”
Id. at 255. Officer Herrera testified that before August 24, Reilly “was given
an open time frame during the day to go look for employment” and write it
on the job search log, but after that date, “[h]e wasn’t allowed to go out for
job searches any longer unless he had a specific interview at a specific
place. . . .[h]e was not allowed to just go roam around and look for
employment.” Id. at 263-64.
Based on the foregoing, this ground is unexhausted and procedurally
defaulted.

Reilly has not shown prejudice or cause to excuse the default

and has not established his post-conviction counsel performed ineffectively.
Moreover, if considered on the merits, this ground should be denied.
Ground 2: IAC - Misadvised Petitioner Not to Testify to Corroborate
Defenses of Entrapment and Unwilful Violation and
Failed to Locate Weekly Schedule Forms
In his second ground, Petitioner Reilly argues defense counsel
provided ineffective assistance by advising him not to testify at the VOCC
hearing and not locating the weekly schedule forms, which Reilly asserts
would have corroborated his defenses of entrapment and unwilful violation.
ECF No. 22 at 8. Reilly cites Martinez v. Ryan. 132 S. Ct. 1309 (2012)

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 21 of 29
Page 21 of 29

and asserts he “did not raise this claim in his postconviction motion
because he did not have postconviction counsel to help him prepare a
meaningful Rule 3.850 motion and his, later appointed, postconviction
counsel was ineffective for failing to glean and investigate this ineffectiveassistance-of-trial counsel claim to raise during the postconviction
proceedings.” ECF No. 22 at 9.
In Martinez, the U.S. Supreme Court held that “[inadequate
assistance of counsel at initial-review collateral proceedings may establish
cause for a prisoner’s procedural default of a claim of ineffective assistance
at trial.” 566 U.S. at 9. In particular, “[w]here, under state law, claims of
ineffective assistance of trial counsel must be raised in an initial-review
collateral proceeding, a procedural default will not bar a federal habeas
court from hearing a substantial claim of ineffective assistance at trial if, in
the [State’s] initial-review collateral proceeding, there was no counsel or
counsel in that proceeding was ineffective.” Id. at 17. To overcome the
default, Petitioner must show “the underlying ineffective-assistance-of-trialcounsel claim is a substantial one, which is to say that the prisoner must
demonstrate that the claim has some merit.” Id. at 14. Petitioner must also
show he was actually prejudiced by the default. Coleman v. Thompson
501 U.S. 722, 750 (1991). To establish actual prejudice, and permit federal

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 22 of 29
Page 22 of 29

habeas review of the claim, petitioner must show at least a reasonable
probability the result of the proceeding would have been different. See,
e.g., Henderson v. Campbell. 353 F.3d 880, 892 (11th Cir. 2003).
Here, a review of the state court record reflects that the underlying
ineffective-assistance-of-trial-counsel claim is not a substantial one. In
support of his claim, Reilly states that his officer had given him permission
to be away from his house “to look for employment and he could be away
from his residence all day and he had to return at the end of the day.” ECF
No. 22 at 8. He further states “the weekly schedule,” if obtained by
counsel, would have “support[ed] the defense that Petitioner had
permission to be away from his home and, therefore, did not willfully and
substantially violate the conditions of his probation.” Id.
As explained in the analysis of Ground 1, supra, evidence and
testimony presented at the violation hearing established that Reilly had
several outings that were not authorized by his probation officer and were
not job-search related. During the violation hearing, Reilly confirmed with
the judge that he did not want to testify and that it was his decision:
MR. ROBERT HARPER [defense counsel]: Let me get
this on the record and make sure. Your Honor, I’ve consulted
with the defendant about his right to testify and I believe it’s his
intention not to testify, is the way it was communicated to me.
THE COURT: All right. Well, let’s hear it from him.
Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 23 of 29
Page 23 of 29

If you would stand up please, Mr. Reilly. Raise your right
hand.
(Defendant Sean Reilly duly sworn)
THE COURT: All right. State your full name.
THE WITNESS: Sean P. Reilly.
THE COURT: [l]f you’ll speak up. You don’t need to lean
over there. Do you wish to testify as to the allegations, Mr.
Reilly?
THE WITNESS: No, your Honor.
THE COURT: You understand you have a right to if you
want to?
THE WITNESS: Yes, your Honor.
THE COURT: All right. It’s not Mr. Harper’s decision. It’s
your decision. Do you understand that?
THE WITNESS: Yes, I understand.
THE COURT: Do you wish to testify?
THE WITNESS: No, your Honor.
Ex. F4 at 268-69; see id. at 271 (defense counsel states, in argument, “I
thought it was a good idea for Mr. Reilly not to testify; I agree with his
decision”). Reilly thus acknowledged that he did not wish to testify and that
it was his decision to make, not his lawyer’s.

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 24 of 29
Page 24 of 29

Moreover, even had Reilly testified at the hearing, such would not
change the State’s evidence regarding his violations. Reilly has not shown
at least a reasonable probability the result of the proceeding would have
been different, that is, that the judge would not have found by a
preponderance of the evidence that he violated the conditions of
community control.
Based on the foregoing, Petitioner Reilly’s underlying IAC claim is not
substantial. Petitioner has not demonstrated prejudice by the procedural
default. This ground should be denied.
Ground 3: IAC - Failure to Investigate, Hire, and Call Mental Health
Expert Witness to Corroborate Unwilful Violation
In his third ground, Petitioner Reilly argues defense counsel provided
ineffective assistance by not using a mental health expert witness to testify
regarding his ADD, which Reilly asserts was “so debilitating . . . that he was
unable to comply with the terms of his probation.” ECF No. 22 at 11. As
with Ground 1, Reilly argues that his post-conviction counsel performed
ineffectively by abandoning this claim at the evidentiary hearing. Id. at 11.
Respondent asserts Reilly did not exhaust this claim and it is now
procedurally barred under state law. ECF No. 26 at 19, 21. Respondent
asserts Reilly has not demonstrated cause to excuse the default because

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 25 of 29
Page 25 of 29

he has not established ineffectiveness by post-conviction counsel. Id. at

21.
In addition, as Respondent points out, Reilly does not include, in
support of his claim, an affidavit from a mental health expert specifying the
testimony that would have been presented. ECF No. 26 at 44. Thus,
Reilly’s claim is entirely speculative and insufficient to establish prejudice
under Strickland. See, e.g., Teiada v. Dugger. 941 F.2d 1551, 1559 (11th
Cir. 1991) (explaining petitioner is not entitled to habeas relief where claims
are merely “conclusory allegations unsupported by specifics or contentions
that in the face of the record are wholly incredible”); Duran v. Walker. 223
F. App’x 865, 875 (11th Cir. 2007). Cf., e.g., Pope v. Sec’v for Dep’t of
Corn, 680 F.3d 1271, 1294 (11th Cir. 2012) (reversing and remanding for
evidentiary hearing on IAC claim where, among other things, “Pope has
alleged, through his experts’ affidavits, that his mental illnesses, both
singularly and in combination, impaired all aspects of his cognitive and
emotional processes and left him predisposed to act in an irrational manner
when confronted with even minimal stressors”). This ground should be
denied.

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 26 of 29
Page 26 of 29

Ground 4: IAC - Affirmatively Misadvised Petitioner
Not to Accept Plea Offer
In his fourth ground, Petitioner Reilly argues his trial counsel provided
ineffective assistance by affirmatively misadvising him to reject the State’s
plea offer of four (4) years in prison, the State’s case was weak, and the
State could not prove a willful violation because all the State had was
hearsay evidence. ECF No. 22 at 14. As with Grounds 1 and 3, Reilly
argues that his post-conviction counsel performed ineffectively by
abandoning this claim at the evidentiary hearing. Id. at 15. Respondent
asserts Reilly did not exhaust this claim and it is now procedurally barred
under state law. ECF No. 26 at 19, 27. Respondent asserts Reilly has not
demonstrated cause to excuse the default because he has not established
ineffectiveness by post-conviction counsel. Id. at 27.
As Respondent indicates, because this claim was not addressed in
state court, the record does not contain evidence of a four-year plea offer
or counsel’s advice regarding such offer. Further, even if counsel did
advise Reilly that the State could not prove a willful violation based only on
hearsay evidence, such advice would have been legally sound. See, e.g.,
Russell v. State. 982 So. 2d 642, 646 (Fla. 2008); Rodgers v. State. 171
So. 3d 236, 238 (Fla. 1st DCA 2015). Here, however, as the judge
explained at the hearing, the evidence presented was not “solely a matter
Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 27 of 29
Page 27 of 29

of hearsay” and “[t]here may be some hearsay mixed into it, but it’s more a
compilation of the records that have been gathered, both admissions,
although they are statements by a person, are an exception to hearsay.”
Ex. F4 at 271.
Based on the foregoing, Petitioner Reilly’s underlying IAC claim is not
substantial. Petitioner has not demonstrated prejudice by the procedural
default. This ground should be denied.
Conclusion
Based on the foregoing, it is respectfully RECOMMENDED that the
amended § 2254 petition, ECF No. 22, be DENIED; Petitioner’s motion for
appointment of counsel, ECF No. 32, be DENIED; and Petitioner’s motion
for an evidentiary hearing, ECF No. 33, be DENIED.
Certificate of Appealability
Rule 11(a) of the Rules Governing Section 2254 Cases in the United
States District Courts provides that “[t]he district court must issue or deny a
certificate of appealability when it enters a final order adverse to the
applicant,” and if a certificate is issued “the court must state the specific
issue or issues that satisfy the showing required by 28 U.S.C.
§ 2253(c)(2).” Rule 11 (b) provides that a timely notice of appeal must still
be filed, even if the court issues a certificate of appealability.

Case No. 4:18cv225-MW/CAS
A^

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 28 of 29
Page 28 of 29

Petitioner fails to make a substantial showing of the denial of a
constitutional right. 28 U.S.C. § 2253(c)(2); Slack v. McDaniel. 529 U.S.
473, 483-84 (2000) (explaining substantial showing) (citation omitted).
Therefore, the Court should deny a certificate of appealability.
The second sentence of Rule 11(a) provides: “Before entering the
final order, the court may direct the parties to submit arguments on whether
a certificate should issue.” The parties shall make any arguments as to
whether a certificate should issue by filing objections to this Report and
Recommendation.
Leave to appeal in forma pauperis should also be denied. See Fed.
R. App. P. 24(a)(3)(A) (providing that before or after notice of appeal is
filed, the court may certify appeal is not in good faith or party is not
otherwise entitled to appeal in forma pauperis).
Recommendation
It is therefore respectfully RECOMMENDED that the amended
§ 2254 petition, ECF No. 22, be DENIED; Petitioner’s motion for
appointment of counsel, ECF No. 32, be DENIED; and Petitioner’s motion
for an evidentiary hearing, ECF No. 33, be DENIED. It is further
RECOMMENDED that a certificate of appealability be DENIED and that
leave to appeal in forma pauperis be DENIED.

Case No. 4:18cv225-MW/CAS

Case 4:18-cv-00225-MW-CAS Document 35 Filed 10/18/19 Page 29 of 29
Page 29 of 29

IN CHAMBERS at Tallahassee, Florida, on October 18, 2019.
SI Charles A. Stampelos___________
CHARLES A. STAMPELOS
UNITED STATES MAGISTRATE JUDGE

NOTICE TO THE PARTIES
Within fourteen (14) days after being served with a copy of this
Report and Recommendation, a party may serve and file specific
written objections to these proposed findings and recommendations.
Fed. R. Civ. P. 72(b)(2). A copy of the objections shall be served upon
all other parties. A party may respond to another party’s objections
within fourteen (14) days after being served with a copy thereof. Fed.
R. Civ. P. 72(b)(2). Any different deadline that may appear on the
electronic docket is for the Court’s internal use only and does not
control. If a party fails to object to the magistrate judge’s findings or
recommendations as to any particular claim or issue contained in a
Report and Recommendation, that party waives the right to challenge
on appeal the district court’s order based on the unobjected-to factual
and legal conclusions. See 11th Cir. R. 3-1; 28 U.S.C. § 636.

Case No. 4:18cv225-MW/CAS

f

(

Case: 20-10378

Date Filed: 06/09/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10378-D
SEAN P. REILLY,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Florida
Before: LUCK and LAGOA, Circuit Judges.
BY THE COURT:
Sean Reilly has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2, of this
Court’s May 6, 2020, order denying his motion for a certificate of appealability. Upon review,
Reilly’s motion for reconsideration is DENIED because he has offered no new evidence or
arguments of merit to warrant relief.

t

'

*

